Scott S. Harris
April 17, 2020
Page 2

HERBERT H. SLATERY III
ATTORNEY GENERAL AND REPORTER
P.O. BOX 20207, NASHVILLE, TN 37202
TELEPHONE (615)741-3491
FACSIMILE (615)741-2009

April 17, 2020

Via E-Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Angela Hamm, et al. v. State of Tennessee, No. 19-1059
Dear Mr. Harris,
The petition for a writ of certiorari in Hamm v. Tennessee, No. 191059, was filed on February 19, 2020. The State of Tennessee’s response to
the petition was originally due on March 27, 2020. The State requested and
received an extension of time to and including April 24, 2020. Pursuant to
Supreme Court Rule 30.4, the State now respectfully requests a further
extension of 28 days, to and including May 22, 2020, within which to file its
response to the petition. Petitioner objects to a further extension until May
22, 2020, but has no objection to a shorter extension until May 15, 2020.
This is the State of Tennessee’s second request for an extension of
time. The further extension is needed because the COVID-19 pandemic has
created significant additional responsibilities for the State’s counsel of

Scott S. Harris
April 17, 2020
Page 2

record, Sarah K. Campbell, and the State’s Solicitor General, Andrée S.
Blumstein. These responsibilities include substantial emergency litigation.
Respectfully submitted,
/s/ Sarah K. Campbell
SARAH K. CAMPBELL
Counsel of Record
Associate Solicitor General
P.O. Box 20207
Nashville, TN 37202-0207
(615) 532-6026
sarah.campbell@ag.tn.gov
cc: Ilana H. Eisenstein (Counsel for Petitioners)

CERTIFICATE OF SERVICE
I, Sarah K. Campbell, a member of the Supreme Court Bar, hereby
certify that on April 17, 2020, a copy of the attached letter requesting a
further extension of time within which to file the State of Tennessee’s
response was served by email on the following counsel:
Ilana H. Eisenstein
DLA Piper LLP (US)
One Liberty Place
1650 Market St.
Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein@us.dlapiper.com
/s/ Sarah K. Campbell
SARAH K. CAMPBELL
Associate Solicitor General
P.O. Box 20207
Nashville, TN 37202
(615) 532-6026
sarah.campbell@ag.tn.gov

